C

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna Wolf, hereby certify that 1 unbound copy
and 40 bound copies of the foregoing Brief of Local
Governments as Amici Curiae in Support of
Re pondents in 20-107, Cedar Point Nursery, et al. v.
Victoria Hassid, et al., was sent via Next Day Service
to the U.S. Supreme Court, and via Next Day and email service to the following parties listed below, this
12th day of February, 2021:
Joshua Paul Thompson
Wencong Fa
Pacific Legal Foundation
930 G Street
Sacramento, CA 95814
(916) 419-7111
jthompson@pacificlegal.org
wfa@pacificlegal.org

Counsel for Petitioners
Joshua Patashnik
California Department of Justice
455 Golden Gate Ave., Suite 11000
San Francisco, CA 94102
(415) 510-3896
josh. patashnik@doj.ca. gov

Counsel for Respondents

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Jonathan B. Miller
Counsel of Record
Public Rights Project
4096 Piedmont Avenue #149
Oakland, CA 94611
(646) 831-6113
jon@publicrightsproject.org

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 12, 2021.

J) ™

. (A~

DonntlWolf'
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

